>G~MENsz               -

   CAUSES OF NONCOM~L~ANCE




OFFICE OF INSPECTOR GENERAL
OFFICE OF EVALUATION AND IJ5iSPECTIONS
                                                 I

                                         JUNE 1990
                        OFFICE OF INSPECTOR GENERAL
The mission of the Ofice of Inspector General (OIG) is to promote the efficiency,
effectiveness, and integrity of programs in the United States Department of Health and Human
Services (HHS). It does this by developing methods to detect and prevent fraud, waste, and
abuse. Created by statute in 1976, the Office of Inspector General keeps both the Secretary
and the Congress fully and currently informed about programs or management problems and
recommends corrective action. The OIG perfoms its mission by conducting audits,
investigations, and inspections with approximately 1,400 staff strategically located around the
country.


                 OFFICE OF EVALUATION AND INSPECTIONS
This report is produced by the Office of Evaluation and Inspections (OEI), one of the three
major offices within the OIG. The other two are the Office of Audit Services and the Office of
Investigations. Inspections are conducted in accordance with professional standards
developed by OEI. These inspections are typically short-term studies designed to determine
program effectiveness, efficiency, and vulnerabilities to fraud or abuse. , ,

Entitled "Medication Regimens: Causes of Noncompliancey'this report identifies why elderly
people have           following instructions for prescription medication use.

The study was carried out under the direction of Linda Herzog, Regional Inspector General,
Office of Evaluation and Inspections, Atlanta Region. Participating in the project were the
following people:

ATLANTA                                      HEADQUARTERS
Jean Dufresne                                =cki Greene
         MEDICATION REGIMENS;
       CAUSES OF NONCOMPL~ANCE




                  Richard P. Kusserow
                  INSPECTOR GENERAL




-
OEl-04-89-89121                         JUNE 1990
-   I




                                        EXECUTIVE SUMMARY

        PURPOSE

        The purpose of this inspection is to determine why elderly people fail to follow prescription
        medication regimens.

        BACKGROUND

        Failure to adhere to medication instructions, either willful or inadvertent, has been termed
        noncompliance with medication regimens. Instances of noncompliance can include failing to
        initially fill a prescription, taking either more or fewer doses than instructed, and taking
        medications that have been prescribed for someone else.

        Writ research indicates that 55 percent of the elderly do not follow the medication
        regimens prescribed by their physicians.

        METHODS

        This inspection examines and summarizes extensive prior research in the area of
        noncompliance with medication regimensJt also draws on congressional testimony, reports
        issued by consumer groups involved with medication issues, and reports of government
        agencies concerned about the elderly, medications, and medical compliance.

        FIND1NGS

        The consequences of noncompliance are serious and costly.

        Noncompliance with medication regimens can result in the increased use of medical resources
        such as nursing homes, hospitals, physician visits, and unnecessary treatment. Noncompliance
        with medication regimens may also result in therapeutic failure. For example, missed doses of
        cardiac anti-arrhythmics can lead to arrhythmia and cardiac arrest.

        There are many inter-related reasonsfor noncompliance.

                                                                             s into four main
        Reasons why elderly people fail to comply with medication ~ g i m e nfall
        categories:

        Physiological factors: Loss of vision or heaxing can impede an elderly person's ability to
        read important information about his prescription or to hear instructions about his regimen.
        Mobility limits,type of disease, the presence of symptoms, memory loss, depression, and
        cognitive impairment are other physiological variables that can negatively affect compliance.
Behavioral factors: These include social isolation, social and health beliefs, and economic
condition. Many elderly people live alone. Studies have shown that people who live alone
more often fail to comply with medication regimens. For those elderly on fixed, minimal
incomes, the ability to purchase expensive medications may also be a factor in noncompliance.

Treatment factors: These include the duration and complexity of the medication ~ g i m e n .
Compliance rates decrease when the treatment is long-term and when the regimen includes
many different medications that must be taken concurrently. Other treatment factors include
the type of medication prescribed, and the patient's perception of the medication.

Health Care Providerkatient Interaction factors: These include how well the physician,
the pharmacist, and the patient communicate with each other. The quality and content of a
physician's instructions, the content of a pharmacist's label, and the ability of a patient to ask
questions can all affect compliance.

Education is the key to improving compliance.

Strategies to improve compliance include physicians and pharmacists better educating patients
about their medication regimens. Effective counseling by the physician and pharmacist may
be the single best intervention for patients with compliance problems. Public education
groups are also currently involved in informing and educating elderly citizens about
medication issues. Compliance aids such as medication reminder charts may be useful tools
for patients with memory impairments, or patients on complex medication regimens.

Attempts to improve compliance through educational and other behavioral strategies do work,
as long as they are matched to the individual patient's needs. There is evidence to suggest that
kith the proper education and support the elderly can overcome compliance difficulties.
                            TABLE OF CONTENTS
EXECUTIVE SUMMARY

INTRODUCTION  ..................................................1
FINDINGS ....................................................... 3
                           WITH MEDICATION REGIMENS;
               DO NOT COMPLY
     MANYELDERLY
     THECONSEQUENCESARESERIOUS     .................................... 3
          Extent of Medication Use ....................................3

          Frequency of Noncompliance ................................4

          Consequences of Noncompliance ............................5
     THEREARE MANY INTER-RELATEDREASONSFOR
     NONCOMPLIANCE.................................................6
          Physioiogical Factors ........................................
                                                        ..              6

             Behavioral Factors   .........................................9

                                                ...................... 12
            Health Care Provider~Patientlntemction
             IS THEBEST WAYTOIMPROVE COMPLIANCE
     EDUCATION                                      .................. 15
         Educating Patients and Health Care Providers ................. 15

         Using ComplianceAids .................................... 16

         Compliance Can Be Improved ............................... 17

APPENDIX A
     Other 010 Studies of Elderly Medication Issues   .....................A .1
APPENDIX B
     Endnotes   .....................................................8.1
APPENDIX C
    Selected Bibliography   ..........................................C .1
                                        INTRODUCTION
PURPOSE

Research has shown that a significant proportion of elderly people do not correctly follow
their physicians' instructions for taking prescribed medications. The purpose of this study is
to determine why elderly people may fail to follow prescription medication regimens:


BACKGROUND

In April 1989, the Office of Inspector General issued a report entitled "Medicare Drug
Utilization Review" (ON-01-88-00980). The report describes patterns of mismedication
among elderly adults, identifies components of the drug delivery system that contribute to the
problem, and describes drug utilization review (Dm)    interventions that appear most
promising to Medicare.

This inspection is related to that April report. Its focus is noncompliance among the elderly
with medication regimens. Willful and inadvertent noncompliance contribute significantly to
the problem of mismedication.

Appendix A lists additional studies related to medication and the elderly which have been
completed, are underway.or are planned by the Office of Inspector General.


DEFINITIONS

Mismedication occurs when a patient fails to take medication as prescribed by his physician.
This failure, either willful or inadvertent, is termed noncompliance. Noncompliance can
include:
          failing to initially fill a prescription;   .

          failing to refill a prescription as directed;
          omitting a dose(s);
          over dosing;
          prematurely discontinuing medication;
          taking a dose at the wrong time;
          taking a medication prescribed for someone else;
          taking a dose with prohibited foods, liquids, and other medications;
           taking outdated medications;
           taking damaged medications;
           storing medications improperly; and
           improperly using medication administration devices (e.g. inhalers.)


METHODS

This report is based on the findings of numerous researchers in the field of medical
compliance. The number of original studies on compliance is itself extensive. The number of
reviews of the literature now exceeds the number of original studies.' This inspection draws
on both the original research and the reviews for many of its findings. The literam ranges
from small, narrowly focused studies on aspects of noncompliance, to books which
extensively discuss the elderly and their medication problems, including noncompliance. In
addition, various authors of the literature were contacted for information and clarification of
issues. This report also draws on congressional testimony, reports issued by consumer groups
involved with medication issues, and reports issued by government agencies which are
concerned about the elderly, medications, and compliance. See Appendix C for a list of
compliance-related literam reviewed for this inspection.
                      WITHMEDICATION REGIMENS;
          DO NOT COMPLY
MANYELDERLY
        THECONSEQUENCES OF THEIRNONCOMPLIANCE ARE SERIOUS.

Extent of Prescription Medication Use By fhe Elderly
Adults aged 65 and over comprise approximately 12 percent of the United States population.
but they consume 30 pexcent of all prescription medications dispensed By the year 2030, the
proportion of elderly to the total population is expected to reach 23 percent.3 It is likely that
their consumption of prescription medications will also rise, as more and more elderly come to
rely on medications for management of chronicC    disease. Eighty-six percent of the elderly
have at least one chronic disease requiring medication! The following table shows that those
over 65 have a greater incidence of chronic disease which commonly requires medication
therapy.



                             Extent of Chronic Disease                                       I
                    Commonly Treated with Medication by Age Group
                                 I

                               Under 45       45-54       65 and Over
                                                                         I                   I
              Arthritis                  3%                 27%                 48%
              Hypertension               4%                 25%                 35%
              Heart Disease              3%                  12%                30%
              Diabetes                   3%                  5%                 10%

      Adapted from: National Center for Health Statistics, C.A. Shoenborn and M.Marano, 1988
      "Cmnt Estimates from the National Health Interview Survey: United States 1987.
      Vital and Health Statistics Series 10,No. (PHS) 88-1594,Public Health S e ~ c e .Washington:
      U. S. Government Printing Office.


Then is heightened concern in the health care field about patients with chronic conditions.
Their use of prescription medication shifts the mode of their treatment fiom direct medical
care to continuous patient self-management? Ninety-five percent of the elderly live outside
of institutions and are responsible for their own medications!

One researcher found that 25 percent of elderly patients discharged fiom a hospital leccived
six or more prescriptions. 7

A community-based sample showed that 25 percent of the elderly use four or more
prescriptions regularly.8
    The types of prescription medications most used by the elderly are:
               cardiovascular;
               diuretic;
               anti-infective; and
               psychotropic.9
    The American Association of Retired Persons (AARP) has estimated that the total amount
    spent by elderly persons for medications (including over-the-counter preparations) in a single
    year is over $9 billion. lo

    Frequency of Noncompliance Among the Elderly
    Prior research indicates that 55 percent of the elderly fail to comply in some way with their
    medication ~ ~ i m e n s . "Podell and Gary have suggested that one-third of the elderly always
    comply, one-third sometimes comply, and one-third never comply with their medication
    regimens. 12

    An American Association of Retired Persons (AARP) survey of ambula&y elderly found that
    33 percent said they had prematurely discontinued a prescribed medication, and 14 percent
    failed to initially f
                        a a prescription at least once.')
"
    Noncompliance with medication regimens is a problem not only among the elderly.
    Forty-three percent of the general population made errors in self-administration of their
    medications according to one study. However, the same study showed that 58 percent of the
    elderly made errors when taking their medication^.'^ In one of the early studies done on the
    subject of noncompliance, 26 percent of the elderly studied made errors which had potentially
    serious consequences as judged by the patients' primary physicians. 15

    Rates of medication compliance are difficult to generalize. An individual patient's compliance
    behavior may not be consistent. A patient may comply with one medication but not another.16
    Compliance behavior may change over time due to the patient's perceptions of efficacy of
    treatment and other factors.l7

    Methodological m~ulties associated with conducting compliance studies may lead to an
    underestimation of the extent of the compliance problem l8 The development of electronic
    compliance monitoring &vices may help researchers, clinical trial investigators, and
    practicing physicians better track noncompliance in their patients.
    Consequences of Noncompliance
    Of all age groups the elderly benefit the most from taking medications and risk the most from
    failing to take them properly. The consequences are more serious, less easily detected, and
    less easily resolved than in younger age groups. 19

    Noncompliance with medication orders can increase the use of medical resources.
               Across the general population it has been estimated that noncompliance with
               treatment for cardiovascular disease results in an excess of 125,000deaths and
               several thousand hospitalizations per year. (Six of the ten most frequently used
               drugs for patients 75 years and older are cardiova~cular.)~~
     .         Up to 23 percent of nursing home admissions may be due to elderly patients'
               inability to self-administermedications21
               About 10percent of ho ital admissions may be due to poor patient compliance
               with medication orders.%
               Over a two-month period, researchers at a large teaching hospital found that
               drug-noncompliance-related hospital admissions for 23 patients accounted for 590
               hospital days and appmximately $60,000in avoidable costs?
               Emergency care may be required if patients fail to take their medications properly.
               Increased physician visits may be required if, because of medication
               noncompliance, the patient's condition does not improve. If the physician is not
               aware of the noncompliance, higher doses or additional medications might be
               prescribed which are unnecessary and possibly dangerous.a
               Additional diagnostic tests may be ordered if, because of medication
               noncompliance, the patient's condition does not improve or worsens.

I
               Additional or unnecessary alternative treatments may be prescribed as a result of
               noncompliance.
    There is documentation that medication noncompliance is directly related to therapeutic
    failure. For instance:
              Missed doses of anti-glaucoma medications lead to optic nerve damage and
              blindness.
              Missed doses of cardiac anti-arrhythmics lead to arrhythmia and cardiac arrest,
              Missed doses of anti-hypertensives lead to rebound hypertension (sometimes worse
              than if no medication had been taken in the Errst place).
              Missed doses of antibiotics lead to recurrent infection and also to ,theemergence of
              resistant micro-organisms.25
The foregoing section described the adverse consequences of patients' failure to take
medication as prescribed. However, there is another side to the story. Noncompliance can
reveal when a medication has been unnecessarily prescribed. The patient who has been
prescribed an unnecessary medication may be better off if helshe does not comply, provided
that the physician is aware of the noncom liance. Otherwise the physician may keep
prescribing the unnecessary medication.   2

THEREARE MANYINTER-RELATEDREASONS FOR NONCOMPLIANCE.

One group of researchers identified over 200 variables that have been examined in relation to
compliance with medical regimens." This nport by the Office of Inspector General identifies
those variables that have the most bearing on reasons why the elderly may fail to comply with
their medication.regimens. These variables fall into four main categories:
           physiological factors
           behavioral factors
           treatment factors
           health care providerlpatient interaction.
Despite the fact that the variables are discussed as separate classes, in practice they overlap
substantially. They should not be viewed as independent.

It is also important to keep in mind that age by itself is not a determining factor in
noncompliance. Rather, the many factors discussed below may combine to render the elderly
less able to comply with their medication regimens.28

Finally, there is evidence to suggest that with the roper motivation, education, and support,
                                                   9!
the elderly can overcome compliance

Physiological Factors
Sensory Impairmenf: Well over a million older adults have impaired vision - a critical factor
in compliance with prescription medication regimens.u) Loss of vision can impair reading
and understanding of prescription labels and other printed instructions handed out by the
physician or pharmacist.
           Fifty-four percent of partially sighted persons are estimated to be at least 65 years
           old. (Most partially sighted persons are unable to read newspaper column type at
           normal reading distances even with the help of eyeglasses, and have
           recognizing faces even when they are close.)31
           Forty-six percent of the functionally blind group sre 65 years or 0lder.3~
Critical communication with the physician or pharmacist can be missed by the patient with a
hearing defi~it.3~
           At least 30 percent of individuals 65 and older have significant impairment of
           hearing in the frequencies associated with normal speech.34
Mobility Limits: Decreased mobility and dexterity can limit a erson's ability to have
prescriptions filled, and to open and close childproof containers.3 5
           Almost half of all noninstitutionalized elderly are limited in mobility because of
           chronic conditions.36
Type of Disease: Studies of patients with chronic conditions show that compliance is worse
when:
           the medicine is taken preventively;
           the disease is without symptoms; and
                                                                         37
           there are no immediate negative consequences of noncompliance.
                                                                  ..

Presence of Symptoms: An illness with easily mognized and unpleasant symptoms that are
relieved b the use of medication is more likely to promote compliance with medication
regimens? However, Haynes claims that it is the degree of disability brought about by
symptoms that promotes good compliance. He speculates that compliance improves because
the disability results in closer supervision of the patient?9

Some symptoms may fail to stimulate the commitment to follow medication orders. The
elderly in particular may adapt to a steady state of symptomatic discomfort, or resign to
"feeling pretty good for my age.'*' Some of these elderly may prefer to live with mi&
symptoms than deal with the inconvenience of a medication regimen.

Some patients use symptoms as barometers to determine when they should discontinue taking
medication. Such decisions to discontinue medication are based on the mistaken assumption
that the abatement of symptoms indicates recover#' In a study of a group of hypertensives,
some patients reported that they only took their medication(s) when they knew their blood
pressure was high. Their assessments of blood pressure levels were based on symptoms such
as headaches and stress, although research shows that hypertension is a disease without
symptoms.42
Memory Loss: Memory loss is a critical problem for many elderly trying to recall a
physician's or pharmacist's instruction for medication use.
            Memory loss can be caused by prescribed medications.
           Memory loss may indicate senile dementia, a condition difficult to recognize in its
           earliest stages.43 The prevalence of dementia in the noninstitutionalized elderly
           population is about five percent.44
Depression: Depression is one of the most important psychological disorders of late age. A
community-based sample estimated the prevalence of depressive symptoms among the elderly
to be approximately 15             The ol&r adult with depression can present serious
problems to the health care provider who depends on the patient's cooperation to achieve
compliance with a medication ~ g i m e n .Some depressive symptoms include:
           sadness;
           loss of gratification;
           constant fatigue;
           apathy;
           psychomotor retardation;
           diminished social interaction; and
     .     insomnia.46
Cognitive Impairment: According to Lamy, approximately 15 percent of the
noninstitutionalized elderly have significant cognitive impairments likely to affect their ability
to give an accurate medical history as well as to follow physicians' instruction^?^

Some older persons do not seem to process new information as thoroughly as younger persons
and may need more time to learn new information. Distractions and information presented at
a fast pace can seriously disrupt learning.48

Trying to learn a great deal of information in a short period of time (such as learning a
complex medication regimen), can create a state of information overload. People deal with
information overload by:
           omission - failing to process information;
           error - processing information incorrectly;
           delay - processing information at a later time;
           fdtering - fitting input into existing belief;
            approximation - processing only a part of the information; and
            avoidance - ignoring information.49

 Behavioral Factors
Social Isolation: People who live alone more frequently fail to comply with medication
regimens. This suggests that for those not living alone, the spouse, companion, or associate
assumes a role in ensuring that medications are taken as prescribed.50
           Approximately 35 percent of individuals over 65 live alone (the large majority of
           whom are women).5 1
The effects of social isolation include:
           rusty social skills, including difficulty asking and answering questions; and
           cognitive impairment, including difficulty understanding     direction^?^
           Even regular contact with children may not compensate for the loss of a spouse or
           a dwindling social networQ3
Social and Health Beliefs: Patients hold many beliefs about their health and about the
potential efficacy of any proposed treatment action. Patients' beliefs can be based on:
           misconceptions;
           faulty information; and/or
           cultural conditioning.
For example, some elderly people may believe:
            "Youneed to give your body some restfiom medicine once in awhile or else your
           body becomes dependent on it or immune to it," or
           'You only take medicine when you are ill and not when you feel better," or
           "Ifone dose is good, two must be better."
These beliefs and feelings may be shared and supported by significant    others in the patient's
life.54

Economic Condition: Elderly people on minimal fixed incomes may be unable to afford
necessary medications. Overall, the elderly pay 14 percent more per prescription than the
nonelderly because of the mix of medications and the number of doses, which is often greater
due to long-term therapy. Furthermore, the elderly pay a larger percentage of their
prescription medication costs out of pocket.55
Since 1980 prescription medication prices have increased two to three times faster than all
                                                                                                   .
consumer prices, while real income has remained relatively static.56 Social Security payments
have increased at about the same rate as general inflation, but medication price inflation has
far exceeded general inflati~n.~'

About 14 percent of the noninstitutionalized elderly live below the poverty level. An
additional 25 percent live just above the pove line? Some of these patients may need to
                                             say
make choices between medications and food. A survey conducted for the American
Association of Retired Persons (AARP) in 1986 found cost the second most frequently cited
reason for not getting a prescription filled.60

TreafmenfFactors
Side Effects of Medications: Although some researchers think that side effects of
medications contribute to noncompliance, the research evidence is inconclusive.
           Two controlled studies found no difference in the frequency of side effects
           between persons who comply with medication regimens and those who do not6'
           In thirteen studies in which patients were asked their reasons for not taking
           medication as directed, side effects were mentioned by only five to ten percen~62
           In an anti-hypertensive drug trial, seven percent of the actually treated group
           complained of symptoms that may or may not have been medicine related; the
           placebo group had the same frequency and distribution of complaints.63
The AARP has drawn a different conclusion about the relationship between side effects and
noncompliance. In a survey of people 45 and older, 40 percent of the respondents stated they
had experienced some form of side effect during medication use. Of this 40 percent, 59
percent responded that they stopped taking the medication as a result of the side effect. Of the
65 and older respondents, only 47 percent informed their physicians of the disc~ntinuation.~~

Furthermore, the elderly may be more prone to side effects, because their metabolic response
to doses of medications tested on younger people may be

Finally, for diseases (such as hypertension) which have no unpleasant symptoms, a medication
that causes unpleasant effects may well increase the likelihood of noncompliance.66

Medication Class: There is evidence to suggest that compliance will vary with the type of
medication. Researchers have observed:
           an 89 percent compliance rate with cardiac medicines;
          a 78 percent compliance rate with insulin and antidiabetic medicines;
          a 72 percent compliance rate with dimtic medicines;
            a 61 percent compliance rate with anti-hypertensive medicines;
            a 41 percent compliance raw with sedatives;
Research in this area is not complete. Researchers do not offer conclusive reasons for their
findings6'

Perception of Medication: Researchers have found that the size, form, and color of
medication affect compliance.
           Capsules are viewed as significantly stronger than pills.
           Larger preparations arc equated with greater strength.
           Capsule or pill colors can elicit expectations of medication action. Green is
           associated with tranquilizing effects, and yellow is associated with energizing
           effects.68
A patient may deci& to discontinue or alter medication use because.the pill or capsule simply
looks like it will have an effect that the patient does not want to experience.

Some elderly patients with vision or cognitive deficits may be confused by similarly shaped
and colored medications?

The nature of the dosage form, such as the size of the pill or a liquid pre aration, can
negatively affect compliance if it is inconvenient to take or unpalatable.  Po
Duration of 'lkeatment: A consistent finding in the research on medication compliance is
that compliance rates decrease over time. This is significant for the elderly because of the
higher frequency of chronic conditions which require long-term or permanent medication
therapy?'

Complexity of Treatment: The number of medications taken can ne atively affect
compliance. The mon medications taken, the worse the compliance.       BL
It has not conclusively been shown that the frequency of dosing (how often medications ~IE
taken during the day) affects compliance, but differing concurrent dosage schedules can be
inconvenient, confusing, and easy to forgern Furthermore, the number of medications
prescribed can affect the fnquency of dosing?4
Health Care Provider/Patient Interaction
Role of the Physician: Although most research focuses on the issue of compliance as a
patient problem, compliance is the physician's responsibility as well as the patient's.75

Physicians generally unde~stimatethe levels of noncompliance among their own patients?6
They have also been shown to be unreliable predictors of whether or not individual patients
will comply.77

Physicians' beliefs about and attitudes toward elderly patients can affect their interaction and
communication with them.

Studies have shown that many physicians have an overall negative attitude toward treating
elderly patients?8 Gerontological studies suggest that while people form impressions of
younger persons on a wide variety of characteristics (sex, occupation, ethnicity), these
distinctive categories are ignored when forming impressions of older adults, and the
stereotypes (mental weakness, contrariness, physical frailty) associated with age tend to
dominad9 One study of physician attitude noted that 67 percent of physicians interviewed
attributed noncompliance primarily to the patient's uncooperative personality80

The physician-patient encounter is a situation in which patients must learn a very specific role
and set of expectations about:
           the purpose of the medication;
           which medication should be taken;
           how long each medication should be taken; and
           the dosage schedule that should be followed.81
In Svarstaad's study on physician-patient interaction it was evident that physicians frequently
did not discuss their expectations in an explicit manner. Of the 347 medications prescribed
during the course of that study:
           Seventeen percent were never discussed at all.
           In only ten percent of the cases were patients told how long to take the medication.
           Dosage schedules were discussed ambiguously-'Take two capsules everyfour
           hours"--without specifying how many should be taken in a twentyTfourhour period.
           Patients were not always given printed or written instructions for proper use of
           medications.
    During the patient interviews of this same study, many misconceptions were discovered.
    Fifty-two percent of the patients made at least one error when describing the physician's
    expectations. For example, patients who had been prescribed anti-hypertension medication
    sometimes thought the medication was for the relief of other ailments such as low back pain
    or asthmag2

    The traditional physician-patient encounter is ill-suited for learning to take place.
               The encounter is perhaps the most anxiety-laden of all lay-expert consultations.
               Too much information is often transmitted in too short a time.
               A potentially upsetting diagnosis and advice may disrupt learning.
               Traditional learning tools,such as notetaking, are not used.
               The patient's abili to learn can also be hampered by the physician's use of
               technical language.%3
   Older patients are often reticent to ask questions of their physicians perhaps
                                                                           ,      because of:
               respect for professional autharity;
               fear of looking unintelligent or unsophisticated; or
               anxiety about the medical condition.
   Furthermore, physicians rarely invite questions fi-ompatients regarding proposed medication
   therapy.u

  A Food and Drug Administration survey of physicians discovered that 79 percent feel they
  spend the right amount of time discussing medication therapy with their patients, and 32
  percent feel their patients are very well informed about prescribed medications. An additional
, 56 percent feel their patients are adequately informed.

   Seventy-two percent of the physicians feel that patients frequently discontinue taking
   medication. However, only seven percent of physicians surveyed who prescribe antibiotics
   tell their patients to finish the medication.

   Twenty percent of the physicians surveyed said that sharing of medications is a problem, but
   only three percent of the physicians who prescribe tranquilizers tell their patients not to share
   the medication.

   No physicians who prescribe thiazides (anti-hypertension medication) report that they tell
   their patients the therapy is long-term or permanent.85
The small percentage of physicians in the survey who feel that they don't spend enough time
discussing medications with their patients cite practice demands and limited time. Physicians
see an average of three patients per hour. Physicians who are high prescribers are more likely
to use supplemental education materials such as brochures or pamphlets to explain
rnedication~.~~

Role of the Pharmacist: One study discovered discrepancies between what the physician
wanted on the label and the information the pharmacist actually printed on the label in 20
percent of 179 prescriptions studied. Types of discrepancies most commonly found were:
             The condition or symptom(s) to be treated were either omitted or incorrect.
             The label omitted the physician's individualized instructions for frequency or
             amount of dose.
         '   The label did not include a language translation for foreign speaking patients.87
In regard to patient interaction, pharmacists who were surveyed indicated that:
             Seventy-nine percent would like to have more time for patient consultation.
             Limited time and practice demands are responsible for the lack of patient
             consultation. Pharmacists dispense seven to nine prescriptions per hour.
             Forty-five percent of pharmacists say patient questions interrupt their work not at
             all, and an additional 26 percent say patient questions intempt their work just a
             little. So, while pharmacists do not often offer information voluntarily, they do not
             seem to feel that patients' questions are an imposition on their time.
             Ninety-six percent report that they provide auxili labels on prescriptions and 69
             percent provide pamphlets for certain medications."$
Patient Expectations and Attitude: The AARP survey of Americans over 45 years of age
discovered that 69 percent of re ondents go frst to their physicians when they have questions
about prescription medications!   However, the FDA survey of physicians found that 38
percent of physicians screen out most or all calls about medi~ations.~

Twenty-five percent of respondents to the AARP survey turn to their pharmacists for
information, and a small percent use books or other reference materials to get their
information about medications?'
Forty-nine percent of the over-65 age group report that they never ask their doctors or
pharmacists questions about medications. Respondents in general, and especially the over-65
age group, report dissatisfaction about the information they receive from both their physicians
and pharmacists about:
            the name and purpose of the medication;
           how and when to take the medication;
           whether adverse effects are a possibility;
           whether side effects are a possibility;
           what the storage requirements are;
           how many refills are required; and
           whether there are alternative therapies for the condition?'
Finally, over 45 percent of the above-65 respondents report that their physicians and
pharmacists do not ask them what prescription and nonprescription medications they are
taking before writing or filling a prescription.93 .




The complex nature of the medication compliance issue suggests that there are not likely to be
any quick or simple remedies for this problem94 A number of suggestions have been offered
by various researchers. Haynes has pointed out that any efforts to improve compliance should
target only treatments for which there is reasonable evidence of therapeutic efficacy?5

 Educating Patients and Health Care Providers
PhysiciadPharmacist Level: Patient education has been suggested as a primary means of
improving patient compliance, and has been shown to be successful in many cases. However,
as Falvo has pointed out, patient education is not simply repeating directions or handing out
printed materials. It is a process involving skill in data gathering; individualization of
instructions; prompting and support; and evaluation and follow-up of the patient's success in
implementing the treatment regimeng6 Furthermore, the patient must be involved in
designing any intervention to improve his compliance. Only when the patient has been
allowed to express his or her point of view can the health care provider best decide what
strategies will be most appropriate to improve compliance.

Meichenbaum has suggested that when health professionals view patient education as a
process rather than a single intervention,-theymay fear that the process will become too time
consuming. However, the process of patient education, if incorporated into the daily
interactions of each patient encounter, can actually save time by increasing patient
compliance. Fewer calls or visits to the physician or pharmacist, as well as other benefits of
compliance such as avoiding hospitalization, may result if proper educational techniques are
employed early in the therapy?' Studies have shown that compliance-improving programs
have cost5enefit ratios as high as 1:14.98

Public Education Programs: There are currently many programs for informing and
educating elderly patients about medication issues. Some of the better known programs are:
           The Elder-Ed and Elder Health Programs conducted by the University of
           Maryland's School of Pharmacy: In the Elder-Ed program retired pharmacists are
           teamed with pharmacy students to provide counseling to senior citizens in group
           settings. Within the Elder-Health Program, pharmacy students are required to form
           a relationship with an elderly patient. The student visits the elderly patient
           periodically to help educate the patient about medications. In this way the student
           learns fmt-hand some of the problems elderly people face with medication
           regimens.
           The San Francisco SRx (Senior Medication Program): Sponsored in part by the
           San Francisco Department of Health, SRx involves pharmacies in community
           outreach programs to inform and educate elderly people about their medication
           regimens.
           The National Institute of Drug Abuse (NIDA): The Institute developed a film and
           a booklet about the elderly and medication issues. These are distributed to State
           agencies involved in prevention of medication abuse.
           The American Association of Retired Persons (AARP): Among other activities,
           AARP developed, with the help of the FDA, patient package inserts known as
           MILS (medication information leaflets for seniors) which contain information
           about medications and their proper use. The MILS are distributed with over 90
           percent of medications dispensed through the AARP's mail-order pharmacy
           service.
           The National Council on Patient Information and Education (NCPIE): The
           Council employs public service announcements, education campaigns, and special
           events such as the "TalkAbout Prescription Month" to raise public awareness
           about problems associated with prescription med@ation~?~

Using Compliance Aids
It has been suggested that various electronic and mechanical devices called "compliance aids"
might help to improve compliance.100 There are a wide range of compliance aids available,
from simple charts to record and remind patients of medication use, to sophisticated
micro-electronic bottle caps that have alarms and flashing indicators to alert a patient when a
dose is due. Compliance aids can range in price from a few cents for a chart to fifteen dollars
for a micro-electronic cap. Such aids may be useful for patients with memory impairments or
patients on a complex medication regimen.

Other strategies and mechanisms proposed to improve patient compliance include:
           providing reminder cards for refills;.
           providing written or printed information that is easy to read (large type);
           keeping medication histories;
           using large type and specifying instructions on prescription labels; never writing
           "take as directed;"
           simplifying the regimen as much as possible;
           involving family members in support and/or supervisory roles; and
           demonstrating the proper technique for using a medication application apparatus.

Compliance Can Be Improved
Green et al. conducted a quantitative review of 10 experimental studies specifically addressing
the elderly with education and behavioral interventions designed to improve medication
compliance. They discovered that all methods, with the exception of written materials used
alone, were effective in significantly and substantially improving lcnowledge of medication
use, and decreasing the incidence of error. 101

However, strategies employed to improve patient compliance have been shown to be effective
only insofar as they are matched to individual patient necds.lo2
                                     APPENDIX A

         Office of Inspector General Studies of Elderly Medication Issues


Studies Completed        .                                         Request Report Number

Medicare Drug Utilization Review                                             01-88-00980

Physician Drug Dispensing                                                    01-88-00590

Implications of the Medicare Prescription Drug
Benefit's Electric Claims Processing System

State Discipline of Pharmacists                                              01-89-89020

The Clinical Role of the Community Pharmacist                                01-89-89160

The Clinical Role of the Community Pharmacist: Case Studies   ,:             01-89-89161



Studies Underway

Adverse Drug Reaction Reporting System



Studies Planned

Prescription Drug Advertising
                                        APPENDIX B

                                    -    ENDNOTES


'M. H. Becker and I. M. Rosenstock, "Compliance with Medical Advice," In A. Steptoe and
A. Matthews, eds., Health Care and Human Behavior (New York: Academic Press, 1984). As
cited in Meichenbaum, Facilitating Treatment Adherence.

2 ~ S.. Congress, Office of Technology Assessment, Health Program, "Prescription Drugs and
Elderly Americans: Ambulatory Use and Approaches to Medicare," Staff Paper, October, 1987.

3~ureauof the Census, Cumnt Population Reports, Series P-25, No. 1018, Projections of the
Population of the United States, by Age, Sex, and Race: 1988-2080, by Gregory Spencer, U.
S. Government Printing Office, Washington D. C., 1989.

4~ationalCenter for Health Statistics, Health in the Later Years of Life: Datafmm the
National Centerfor Health Statistics, (Washington D. C.: U. S. Goverhnent Printing Office,
1971). As cited in Phyllis Amaral, "The Special Case of Compliance in the Elderly," in
Kenneth Gerber and Alexis Nehemkis, eds., Compliance: The Dilemma of the Chronically Ill,
(New York: Springer, 1986).

5 ~ ~ n aMeichenbaum
          ld           and Dennis C. Turk, Facilitating Treatment Adherence: A
Practitioner's Guidebook, (New York: Plenum Press, 1987).

    V. Lundin, "Medication Taking Behavior and the Elderly: A Pilot Study,"Drug
Intelligence and Clinical P h a m c y 12 (1978): 518-22.

'c. R. Smith, ''Use of Drugs in the Aged," John Hopkins Medical Jourml, 145, no. 2 (1979):
61-64.

 rank Ascione, et at, "Seniors and Pharmacists: Improving the Dialogue," American
Pharmacist 5 (May 1980): 30-32.

'peter P. Lamy, Drug Use in the Geriatric Population: Problems and Approaches, Draft
Manuscript [Baltimore 19891.

'O~mericanAssociation of Retired Persons, "Cutsin Social Security Cost-of-Living
Adjustments (COLAS): Impact Analysis," Unpublished, 1985. As cited in Off~ceof
Technology Assessment, "Ambulatory Use and Approaches to Coverage for Medicare."
" ~ h ~ l l iAmaral,
              s      'The Special Case of Compliance in the Elderly," In Kenneth Gerber and
Alexis Nehemkis, eds., Compliance: The Dilemma of the Chronically Ill, (New York:
Springer, 1986).

12R. N. Podell and L. R. Gary, "Compliance: A Problem in Medical Management," American
Family Physician 13 (1976): 74-80. As cited in Donald Meichenbaum and Dennis Turk,
Facilitating Treatment Adherence.

13~mericanAssociation of Retired     sons, Prescription Drugs: A Survey of Consumer Use,
Attitudes and Behavior, (Washington D. C.: AARP, 1984).

   J. Latiolas and C. C. Beny, 'Uisuse of Prescription Medications by Outpatients," Drug
14c.
Intelligence and Clinical P h a m c y 3 (1969): 270-77.

 oris is Schwartz, et al., "Medication Emors Made by Elderly Chronically Ill Patients,"
American Journal of Public Health 52, no. 12 (Dee. 1962): 2018-2019.

"~onald Meichenbaum and Dennis Tmk, Facilitating Treatwent Adherence.

"R. Brian Haynes, et al., "How to Detect and Manage Low Patient Compliance in Chronic
Illness," Geriatrics 355 (1980): 91-97. As cited in Helene Levens Lipton, "Elderly Patients
and Their Pills: The Role of Compliance in Safe and Effective Drug Use," Pride Institute
Journal of Long Term Home Health Care 8, no. 1 (Winter 1989): 26-31.

         e Christensen, "Drug-taking Compliance: A Review and Synthesis," Health Services
1 8 ~ a lB.
Research (Summer 1978). And R. Brian Haynes, D. Wayne Taylor, and David L. Sackett,
Compliance in Health Care (Baltimore: John Hopkins UP, 1979). And Donald Meichenbaum
and Dennis Turk, Facilitating Treatment Adherence.

"E. Roy Hammarlund, Jana R. Osmm, and Alice J. Kethley, 'The Effects of Drug
Counseling and Other Education Strategies on Drug Utilization of the Elderly," Medical Care
23, no. 2 (Feb. 1985): 165-170.

20~eter
      PaLamy, "Drug Use and the Elderly: Some Observations and Recommendations,"
The Maryland Pharmacist 64, no. 3 (March 1988): 12.

     . Strandberg, "Drugs as a Reason for Nursing Home Admissions," American Health
2 1 ~R.
Care Association Journal 10. no. 4 (July 1984): 20. As cited in Mickey Smith,"The Cost of
Noncompliance and the Capacity of Improved Compliance to Reduce Health Care
Expenditures," in National Pharmaceutical Council, "Improving Patient Compliance:
Proceedings of a Symposium," (Reston, VA: NPC, 1984).
    *H. Graham and B. Livesley, "Can Readmissions to a Geriatric Medical Unit Be Prevented?"
    Lancet 1 (1983): 404-406. And, P. A. Frisk,J. W. Cooper, and N. A. Campbell,
    "Community-Hospital Pharmacist Detection of Drug-related Problems upon Patient
    Admission to Small Hospitals," Am Journal of Hospital P h a m c y 35 (1977): 738-742. As
    cited in Helene Levens Lipton, "Elderly Patients and Their Pills."  .



    2 3 ~J.. McKenney and W. L. Harrison, "Drug-related Hospital Admissions," American Journal
    of Hospital Pharmacy 33 no. 8 (1976): 792.

          Falvo, Effective Patient Education: A Guide to Increased Compliance (Rockville,
    24~onna
    MD:Aspen Systems Corp., 1985).

    25~ohnUrquhart, "Drug Delivery Technology and Patient Compliance for New Products,"
    Paper presented at The Conference on Advanced Therapeutics: Overcoming End User
    Barriers. Co-sponsered by the National Pharmaceutical Council and Frost and Sullivan,
    Baltimore, April 17-18,1989.

    %ohn Urquhart, "Noncompliance: The Ultimate Absoption BamerYwPaper        presented at The
    Third International Conference on Drug Absorption, Edinburgh, Sept. 27-30, 1988.

    27~eichenbaum,Facilitating Treatment Adherence.

    2B~elene Levens Lipton, "Elderly Patients and Their Pills: The Role of Compliance in Safe
    and Effective Drug Use," Pride Institute Journal of Long Term Home Health Care 8, no. 1
    (Winter 1989): 26-3 1.

    2g~awrence   Green*Patricia Mullen and Gene Stainbrook, "Programs to Reduce Drug Errors
    in the Elderly: Direct and Indirect Evidence from Patient Education," in National
    Pharmaceutical Council, "Improving Patient Compliance: Promdings of a Symposium,"
r
    (Reston, VA: NPC, 1984).

    30~ma.al,"The Special Case of Compliance in the Elderly," in Gerber and Nehemkis, eds.,
    Compliance: The Dilemma of the ChronicallyIll.

         . Genensky and S. H. Zarrit, "Comprehensive Program of Low Vision Services," In A.
    3 1 ~M.
    A. Rosenbloom and M. Morgan, eds., Vision and Aging: General and Clinical Perspectives
    (Chicago: The Professional Press, 1987). As cited in Amaral, "The Special Case of
    Compliance."



    33~maral,"The Special Case of Compliance."
34~ational  Center for Health Statistics, C. A. Shoenbom and M. Marano, 1988. "Current
Estimates from the National Health I n t e ~ e wSurvey: United States 1987," Vital and Health
Statistics Series 10, No. 166. DHHS Pub. No. (PHs) 88-1594. Public Health Service,
Washington D. C.: Government Printing Office.

       Levens Lipton, Statement on "Drug Misuse Among the Elderly and Its Impact on
35~elene
Community Based Care," before the U. S. House of Representatives, Subcommittee on
Human Services, Select Committee on Aging, April 19,1989.



         e Christensen, "Drug-taking Compliance: A Review and Synthesis," Health Services
3 7 ~ a lB.
Research Summer, 1978.

38~eichenbaumand Turk, Facilitating Treamnz Adherence.

3 9 ~ Brian
      .     Haynes, 'The Determinants of Compliance: The Disease and the Mechanics of
Treatment," in R Brian Haynes, D. Wayne Taylor, and David L. Sackett, Compliance In
Health Care (Baltimore: John Hopkins UP, 1979).

             Facilitating Treatment Adherence.
40~eichenbaum,



4%3.Leventhal and D. R. Nerenz, "A Model of Stress Research with some Implications for the
Control of Stress Disorders," In D. Meichenbaum and M. Jarenko, eds., Stress Reduction and
Prevention (New York: Plenum Press, 1983). As cited in Meichenbaum.

       Levens Lipton, Statement on "Drug Misuse Among the Elderly and Its Impact on
43~elene
Community Based Care," before the U. S. House of Representatives, April 19,1989.

44Amaral, "The Special Case of Compliance."

4 5 ~ Blazer
      .      and C. Williams, "Epidemiology of Dysphoria and Depression in an Elderly
Population," American Journal of Psychiatry 134, no. 4 (1980): 439-444. As cited in Amaral.

      * m especial case of Com~liance.~
46~matal,

      P.Lamy, Drug Use in the Geriatric Population: Problems and Approaches.
47~eter

4 8 ~H
     ..Zarrit, "Affective Carelates of Self-Reports About Memory of Older People,"
International Journal of Behavioral Geriatrics 1 (1982): 25-34. As cited in Amaral.
49~eichenbaum,
             Facilitating Treatment Adherence.

50~hristensen,"Drug-Toking Compliance: A Review and Synthesis."

51~ureauof the Census, StatisticalAbstract of the United States: 1989, (109th ed.)
Washington D. C.: Government Printing Office, 1989.

52~maral,"The Special Case of Compliance."



54~elene Levens Lipton, "Elderly Patients and Their Pills: The Role of Compliance in Safe
and Effective Drug Use,"

5S~elene
       Lcvens Lipton, Statement before the U. S. House of Rep~sentatives,April 19,1989.




58~ederalCouncil on Aging, U. S. Dept of Health and Human Services, The Needfor
Long-Term Care, Information and Issues, DHHS Pub. No. (OHDS) 81-20704 (Washington D.
C.: Government Printing Office, 1981). As cited in Amaral.

.59~adeleine
           Feinberg, "Polymedicine and the Elderly: Is it Avoidable?" Pride Institute of
Long Tern Home Health Care 8, no. 1 (Winter 1989): 15-25.

60~mericanAssociation of Retired Persons, Statement on "Drug Misuse Among the Elderly
and Its hpact on Community Based Care." Presented by Dr. Monroe Gilrnour before the U.
S. House of Representatives Select Committee on Aging, Subcommittee on Human Services,
April 19,1989.

6 1 Brian
     ~ Haynes, "Determinants of Compliance."




63~eteran'sAdministration Cooperative Study Group on Anti-hypertensive Agents, "Effens of
Treatment on Morbidity in Hypertension. III)Influence of Age, Diastolic Pressure and Prior
CardiovascularDisease; Further Analysis of Side Effects," Circulation 45 (1972): 991-1004.
As cited in Haynes, "Determinants of Compliance."
@AARP, Prescription Drugs: A Survey of Consumer Use, Attitudes and Behavior
(Washington D. C.: AARP, 1984).

6 5 ~F.. Tempem, "Biological Variability and h u g Response Variability as Factors Influencing
Patient Compliance: Implications for Drug Testing and Evaluation," In Ivan Barofsky, ed.,
Medication Compliance: A Behavioral Management Approach o m f a r e , N . J.: Charles B.
Slack, Inc., 1977).

66~eterP. Lamy, "Non-prescription (OTQ Drugs and the Elderly," The Mayland Pharmacist
64 (Sept. 1988): 9-14.

6 7 ~Closson
     .       and C. Kukugawa, "Noncompliance Varies with Drug Class," Hospitals 49
(1975): 89-93. As cited in Haynes, "Determinants of Compliance."

6%. W. Buckalew and R. E. Sallis, "Patient Compliance and Medication Perception,'' Journal
of Clinical Psychiatry 142 (1986): 244-45. As cited in Meichenbaum, Facilitating Treatment
Adherence.

     . Bootman, "Maximizing Compliance in the Elderly," P h a m c y Proctice for the
6 9 ~L.
~eriatricPatient, Health Sciences Consortium, Carrboro N. C., 1985.

70~hristensen,"Drug-taking Compliance: A Review and Synthesis."

 l~eichcnbaum,Facilitating Treatment Adherence.

7 2 ~Hulka,
     .      J. CasseI, L. Kupper, "Communication, Compliance, and Concordence Between
Physicians and Patients with Prescribed Medicines," American Jownol of Public Health 66
(1976).

73~.Jemigan, "Update on Drugs in the Elderly," American Family Physician 29,no.4 (April
1984): 23847.

7 4 ~ a n yBlackwell, "The Drug Regimen and Treatment Compliance," In Haynes, Sackett and
Taylor, Compliance in Health Care.

7slrving Kenneth %la, 'Taking Your Medication - Problem for Doctor or Patient?" in
Barofsky, Medication Compliance.

7 6 ~Bmlq
     .    and R Gillum, ''The Diagnosis and Management of Patient Compliance,"
Journal of the American Medical Association 228 (1974): 1563-67.

77~avidL. Sackett and John C. Snow, 'The Magnitudt of Compliance and Noncompliance,"
In Haynes, Compliance in Health Care.
     . Smith, "Use of Drugs in the Aged," John Hopkm Medical Journal 145, no. 2 (1979):
7 8 ~R.
61-64,

      . Basil and J. E. Red, "On the Dominance of the Old Age Stereotype," Journal of
7 9 ~ N.
Gerontology 36. no. 6 (1981): 682-88. As cited in Amaral, "The Special Case of Compliance."

8 0 ~S.. Davis, "Variatiims in Patients' Compliance with Doctors' Orders," Journal of Medical
Education 41 (1966): 1037-1048. As cited in Zola, 'TakingYour Medication."

81~onnie  Svarstaad, "Physician-Patient Communication and Patient Conformity with Medical
Advice," In David Mechanic, ed,  The Growth of Bureaucratic Medicine: An Inquiry into the
Dynamics of Patient Behavior and the Organization of Medical Care (New York: John Wiley
and Sons, 1976).



83~avidC. Jenkins, "Cultural Differences in Concepts of Disease and How These Affect
Health Behavior," In Barofsky, Medication Compliance.

84Helene Levens Lipton, Statement before the U. S. House of Representatives.

"~oodand Drug Administration, "Patient Information and Prescription Drugs: P d e l
Surveys of Physiciaiu and Pharmacists," Study no. 8 12020, March 1883.

'hid.

87~varstaad,
          "Physician-Patient Communication."

8 8 F D ~"Patient
          ,       Information and Prescription Drugs."

8   9     ~Prescription
              ,         Drugs: A Survey of Consumer Use,Attitudes and Behavior.

'%A,      "Patient Information and Prescription Drugs."

''AARP, Prescription Drugs.
92~bid.

93~ici.

94~eichenbaum,Facilitating TreatmentAdherence.
"R. Brian Haynes, "Strategies to Improve Compliance with Refcwls, Appointments, and
Prescribed Medicine Regimens," In Haynes, Compliance in Health Care.

9%v0, Efective Patient Education.

             Facilitating.
97~eichenbaum,

98MickeySmith, ''The Cost of Noncompliance and the Capacity of Improved Compliance to
Reduce Health Care Costs," in National Pharmaceutical Council, "Improving Medication
Compliance: Pr&eedings of a Symposium," (Reston, VA: NPC, 1984): 35-44.

"~elene Levens Lipton and Phillip R. Lee,Drugs and the Elderly: ClinicalySocial, and
Policy Perspectives, (Stanford, CA: Stanford UP, 1988).

'%amy, "Drug Use and the Elderly: Some Observations and Recommendations," The
Maryland Phunnacist 64, no. 3 (March 1988): 10-15.

'O1&een, Mullen and Stainbrook, "Programs to Reduce Drug Enors in the Elderly."

'O2~rnaral,"The Special Case of Compliance."
                                      APPENDIX C

                                 'COMPLIANCE ISSUES
                                  Selected Bibliography


American Association of Retired Persons. Health Care in America: Views and Eaperiences of
   M a w e Adults Survey prepared and conducted by Hamilton, Frederick,and Schneider.
   (Washington D. C.: AARP, 1987).

-.D.                                            ! ~ Attitudes, and Behavio,: (Washington
  Prescription Drugs: A Survey of C O ~ U I Z UUse,
     C.: AARP, 1984).

-.Statement on "Drug Misuse Among the Elderly and Its Impact on Communtity-Based
  Care." Presented by Dr. Monroe Gilmour before the U.S. House of Representatives
     Select Committee on Aging, Subcommittee on Human Services. April 19,1989.

American Pharmaceutical Association. Statement on "Medication Use and Misuse in the
    Elderly." Presented by C. Edwin Webb, Pharm.D. before the U.S. House of
   Representatives Select Committee on Aging, Subcommittee on Human Services. April
   19, 1989.

Ascione, Frank J. and Leslie A. Shimp. "The Effectiveness of Four Education Strategies in the
    Elderly." Drug Intelligence and Clinical Phunnacy 18 (Nov. 1984): 926-31.
                                                                                                    -
Ascione, Frank J., M. James, S. Austin and L. Shimp. "Seniors and Pharmacists: Improving
    the Dialogue." Am P h m 5 (May 1980): 30-32.

Bachman, Robert M. "Priorities and Approaches for Improving Medication Compliance by
    Older Americans." U.S. Pharmacist, Special Supplement. Rutgers Pharmaceutical
    Conference. Patient Compliance: Better Health Care and Lower Costs. 36th Annual
    Conference.

Barofsky, Ivan, ed Medication Compliance:A Behavioral Management Approach.
    (Thorofare, N. J.: Charles B. Slack, Inc., 1977).

Blackwell, Barry. "Commentary: The Drug Defaulter." Clinical Pharmacology and
    Therapeutics 13, no. 6 (Nov. - Dec. 1972): 841-48.

Boyd, James R., Tim R. Covington, Walter F. Stanas& and Timothy Coussons. "Drug
                                                                                                '
    Defaulting part ii: Analysis of Noncompliance Patterns." American Journal of Hospital
    Pharmucy 31 (May 1974): 485-91.
Brown, Judith. "&scription Drug Costs for Older Americans." American Association of
    Retired Persons, Public Policy Institute, Issue Brief. March 1987.

Christensen, Dale B. "Drug-taking Compliance: A Review and Synthesis." Health Services
    Research (Summer 1978).                                        8



Cramer, Joyce A., Joseph F. Collins, and Richard H. Mattson. "Can Categorization of Patient
    Background Be Used to Determine Early Termination in a Clinical Trial?" Controlled
    Clinical Trials 9 (1988): 47-63.

Cramer, Joyce A. and Michael L. Russell. "Strategies to Enhance Adherence to a Medical -
    Regimen." In D. Schmidt and I. E. Leppek, eds. Compliance in Epilepsy (Amsterdam:
    Elsevier, 1988).

Deyo, Richard, Thomas S. Inui, and Barbara Sullivan. "Noncompliance with Arthritis Drugs:
    Magnitude, Comlates, and Clinical Implications." Journal ofRheumatology 8, no. 6
    (1981): 931-936.

Epstein, Leonard H. and Bruce J. Masek. "Behavorial Control of Medicine Compliance."
    Journal of Applied Behavior Analysis 11,no. 1 (Spring 1978): 1-9.

Eraker, Stephen A,, John P.Kirscht and Marshall H.Becker. "Understandingand Improving
    Patient Compliance." Annals of Internal Medicine 100 (1984): 258-68.

Falvo, Donna R. Eflective Patient Education: A Guide to Increased Compliance. (Rockville,
    MD:Aspen Systems Corp., 1985).

Feinberg, Madeline. "Polymedicine and the Elderly: Is it Avoidable?" Pride Institute Journal
    ofLong Tern Home Health Care 8 , no. 1 (Winter 1989): 15-25.

Gerber, Kenneth E. and Alexis N. Nehemkis, eds. Compliance:The Dilemma of the
    Chronically Ill. (New York:Springer, 1986)

German, Pearl S., Lawrence E. Klein, Stephen J. McPhee, and Craig R. Smith. "Knowledge of
    and Compliance with Drug Regimens in the Elderly." Journal of the American Geriatrics
    Society 30 (Sept. 1982): 568-71.

Green, Lawrence W., Patricia D. Mullen and Gene L. Stainbrook. "Programs to Reduce Drug
    Errors in the Elderly: Direct and Indirect Evidence fiom Patient Education." National
    Pharmaceutical Council (NPC),"Improving Medication Compliance: Proceedings of a
    Symposium." (Reston, VA: NPC,1984). Also in Journal of GeriatricDrug Therapy 1
    (Fall,1986): 3-18.
    Greenberg, Richard N. "Overview of Patient Compliance with Medication Dosing: A
        Literature Review." Clinical Therapeutics 6 (1984): 592-99.

    Hammarlund, E. Roy, Jana R Ostrom, and Alice J. Kethley. "The Effects of Drug Counseling
       and Other Educational Strategies on Drug Utilization of the Elderly." Medical Care 23,
       no. 2 (Feb. 1985): 165-70.

    Haynes, .R. Brian, D. Wayne Taylor, and David L. Sackett. Compliance In Health Care.
        (Baltimore: John Hopkins UP, 1979).

    Haynes, R. Brian, David L. Sackett, D. Wayne Taylor, Robin S. Robins, and Arnold L.
        Johnson. "Manipulation of the Therapeutic Regimen to Improve Compliance:
        Conceptions and Misconceptions." Clinical Pharmacology and Therapeutics 22, no. 2
        (August 1977): 125-130.

    Lamy,Peter P. Dmg Use in the Geriatric Population: Problems and Approaches. Draft
         Manuscript. Daltimore: 19891.

    -.Pharmacist
      "Drug Use and the Elderly: Some Observations and Recommendations." The Maryland
                 64, no. 3 (March 1988): 10-15.

    -.(Sept.
      "Non-prescription (OTC) Drugs and the Elderly." The Maryland Pharmackt 64, no. 9
             1988): 9-14.

    -.Prescribing for the Elderly. (Littleton, MA: PSG Publishing, 1980).
    Levy,Susan M. "Makingthe Most of Medications: Patient Compliance and You." Medical
         Times 114, no. 10 (Oct. 1986): 61-66.

I   Lipton, Helene-Levensand Philip R Lee.Drugs and the Elderb: Clinical, Social, and Policy
         Perspectives. (Stanford ,CA: Stanford UP, 1988).

    Lipton, Helene Levens. "El&rIy Patients and Their Pills: The Role of Compliance in Safe and
         Effective Drug Use."Pride Institute Journal of Long Term Home Health Care 8, no. 1
         (Winter 1989): 26-31.

    -.Statement on "Drug Misuse Among the Elderly and Its Impact on Community Based
       Care." before the U.S.House of Representatives Select Committee on Aging,
        Subcommittee on Human Services. April 19,1989.

    Marston, Mary-'Vesta. "Compliance with Medical Regimens: A Review of the Literature."
        Nursing Research 19, no. 4 (July-Aug. 1970): 3 12-23.
McKenney, T. J. and W. L. Harrison. "Drug-related Hospital Admissions." American Journal
   of Hospital Phannacy 33, no. 8 (1976).

Mechanic, David. The Growth of Bureaucratic Medicine: An Inquiry into the Dynamics of
   Patient Behavior and the Organization of Medical Care. (New York: John Wiley and
   Sons, 1976).

Meichenbaum, Donald and Dennis C. Turk. Facilitating Treament Adherence: A
    Practitioner's Guidebook. (New York: Plenum Press, 1987).

Mendelson, Marilyn A. "Drug-Regimen Review and Postmarketing Surveillance: Research
   Links to Consultant Pharmacy." The Consultant Phcumacist (July-Aug. 1988): 313-19.

Miller, Roger W. "Doctors, Patients Don't Communicate." FDA Consumer. July/Aug. 1983.
     DHHS Pub. No. 83-1102. (Washington D. C.: Government Printing Office,
     1983-381-173-34).
                                                                    .   .
Murray, Michael D., Jeffkey Darnell, Morris Weinberger, and B. L. Martz. "Factors
    Contributing to Medication Noncompliance in Elderly Public Housing Tenants." Drug
    Intelligence and Clinical Phannacy 20 (Feb. 1986): 146-52.

National Center for Health Statistics, C. A. Schoenborn and M. Marano. "Current Estimates
     from the National Health Interview Survey: United States, 1987" Vital and Health
     Statistics Series 10, No. 166, DHHS Pub. No. (PHs) 88-1594. (Washington D. C.:
     Government Printing Office, 1988).

National Council on Patient Information and Education. Resources for "TalkAbout
    Prescriptions" Month (Washington D.C.: NCPIE, Oct. 1988).

-.Americans
  Priorities and Approaches for Improving Prescription Medicine Use By Older
              (Washington D.C.: NCPIE,Oct 1987).

National Data Corp. Statement on "Drug Abuse Among the Elderly." Presented by Mark L.
     Braunstein, M.D. before the U.S. House of Representatives Select Committee on Aging,
     Subcommittee on Human Services. April 19,1989.

National Pharmaceutical Council, Inc. "Misuse of Prescription Medications: Costs and
     Strategies for Prevention." Executive Summary, Orlando, FL:Oct. 18,1988.

-.NPC,
   "Improving Medication Compliance: Proceedings of a Symposium." (Reston, VA:
        1984).
Orr, Mildred C. and James H. Sanders, Jr. "Reducing Polypharmacy in the Nursing Home."
     North Carolim Medical Journal 49, no. 1 (Jan. 1988): 41-45.

Pharmaceutical Manufacturers Association. Statement on "Drug Abuse and the Elderly."
    Presented by John F. Beary III, M.D.,Senior Vice President of Science and Technology,
    before the U. S. House of Representatives Select Committee on Aging, Subcommittee on
    Human S e ~ c e sApril
                      .    19,1989.

Schwartz, Doris, Mamie Wang, Leonard Zeitz, and Mary E. W. Goss. "Medication Errors
    Made By Elderly Chronically Ill Patients." American Journal of Public Health 52, no. 12
    (Dec. 1962): 2018-2029.

Sharpe, Thomas R. and Robert L. Mikeal. "Patient Compliance with Antibiotic Regimens."
    American Journal of Hospital Pharmacy 31 (May 1974): 479-84.

Smith, Mickey. "The Cost of Noncompliance and the Capacity of Improved Compliance to
    Reduce Health Care Expenditures." In National Pharmaceutical Council. "Improving
    Medication Compliance: Proceedings of a Symposium." (Reston, VA: NPC, 1984).

Steckel, Susan Boehm. "Predicting, Measuring, Implementing and Following Up on Patient
     Compliance." Nursing Clinics of North America 17, no. 3 (Sept. 1982): 491-498.

Stoller, Eleanor Palo. "Prescribed and Over-the-Counter Medicine Use by the Ambulatory
     Elderly." Medical Care 26, no. 12 @ec. 1988): 1149-57.

U. S. Bureau of the Census. Statistical Abstract of the United States: 1989. (109th Edition)
     Washington D. C., 1989.

U. S. Congress, Office of Technology Assessment (Health Program). Prescription Drugs and
     Elderly Americans: Ambulatory Use and Approaches to Coveragefor Medicare. Staff
    Paper. October, 1987.

U. S. Congress, Office of Technology Assessment Technology and Aging In America.
     OTA-B A-264. June, 1985.

U. S. Food and Drug Administration. Statement by Commissioner Frank E. Young, M.D.,
     before the U.S. House of Representatives Select Committee on Aging, Subcommittee on
     Human Services. April 19,1989.

-.Louis Morris, Ruth Grossman, Gerald Barkdoll, and Evelyn Gordon. "A National Survey
  of Prescription Drug Information Provided to Patients." Survey conducted by Westat
    Corp. OPE Study 73. May 20,1986.
-.Louis Moms and Steven Moore. "Patient Infoxmation and Prescription Drugs: Parallel
  Surveys of Physicians and Pharmacists." Survey conducted by Louis Harris and
     Associates. March, 1983.

U. S. Dept: of Health, Education and Welfare, Public Health Service, National Institutes of
     Health. "Diagnosis and Management of Hypertension: A Nationwide Survey of
     Physicians' Knowledge, Attitudes and Reported Behavior." DWEW Pub. No. (NIH)
     79- 1056.

U. S. Dept. of Health and Human Services, Public Health Service, National Institutes of
     Health. ''The Public and High Blood Pressm: Six-Year Follow Up Survey of Public
     Knowledge and Reported Behavior." Survey conducted for the National Heart, Lung, and
     Blood Institute by Urban Behavioral Research Assoc. and Louis Harris and Assoc. NM
     Pub. No. 85-2118, Feb. 1985.

U. S. Dept. of Health and Human Services, Office of Inspector General. Statement on
     "Implementation of the Drug Provisions: Medicare Catastrophic Coverage Act."
     Presented by Inspector General Richard P.Kusserow before the U. S. House of
     Representatives Select Committee on Aging, Subcommitteeon Human Services. April
     19,1989.

-.April,
  Office of Inspector .General. "Medicare Drug Utilization Review." OAI-01-88-00980.
         1989.

U. S. General Accounting Office. "Medicare: Prescription Drug Issues." Report to the
     Chairman, Special Committee on Aging, U. S. Senate. GAO-PEMD-87-20, July, 1987.

Urquhart, John. "Drug Delivery Technology and Patient Compliance for New Products."
    Paper presented at the Conference on Advanced Therapeutics: Overcoming End User
    Barriers. Co-sponsered by the National Pharmaceutical Council and Frost and Sullivan.
    Baltimore: April 17-18,1989.

Urquhart, John. "Noncompliance: The Ultimate Absorption Barrier.." Paper presented at the
    Third International Conference on Drug Absorption. Edinburgh: September 27-30, 1988.

Wandless, I. and J. W. Davie. "Can Drug Compliance in the Elderly be Improved?" British
   Medical Journal 1 (1977): 359-361.
